                                                    NATIONAL SCIENCE FOUNDATION 

                                                    OFFICE OF INSPECTOR GENERAL 

                                                      OFFICE OF INVESTIGATIONS 


                                              CLOSEOUT MEMORANDUM

 Case Number: AI0II0081                                                             Page 1 of 1


               A reviewer noted the PI1 of an NSF proposal (proposal 1)2 had used the same
         image (Fig. A) from a previous NSF proposal (proposal 2),3 but had identified the
         images differently in the two proposals. We reviewed proposals 1-2, as well as other
         recent proposals submitted by the PI. We found that same or similar figures in
         seven other NSF proposals. Particularly concerning was the Subject's reuse of Fig.
         A in another proposal (proposal 3),4 where it was described as a different material.
                We contacted a subject matter expert to review the material. Based on his
         analysis, we concluded the issue was sufficiently serious to warrant an Inquiry and
         we referred the Inquiry to the PI's home institution (the University). We reviewed
         the PI's response to the Inquiry and provided it to our expert for review. We jointly
         concluded the PI's response raised more concerns instead of alleviating the existing
         concerns. We referred the matter back to the University and requested an
         Investigation.
               The University formed an investigation committee (Ie) of researchers from
         other universities to avoid the conflicts and have the necessary technical expertise.
         The Ie concluded the PI had physical samples, and images from some of those
         samples. However, some original images of those samples were missing. The
         equipment the PI used to image the samples is old and damaged and did not include
         any identifying information on the images; thus, the images had to be labeled by
         hand. After interviewing the PI and reviewing his lab, the Ie concluded, based on a
         preponderance of evidence standard, that the PI carelessly mixed up images during
         the proposal preparation of proposal 2, and made a series of copy-and-paste
         mistakes .that resulted in mislabeled and repeated images in multiple proposals.
              We accept the University's conclusions that the PI did not commit research
        misconduct, but conclude the level of sloppiness exhibited by an experienced
       "researcher warrants a warning letter to the PI. Accordingly, this case is closed.




              1   [redacted]. 

              2   [redacted] WaS submitted by the University and was declined. 

              3   [redacted] was submitted by the University and was declined. 

              4   [redacted] was submitted by the University and was declined. 




NSF OIG Fonn 2 (11/02)
